JIJW   I          a.               I-                          -   -   -




           DOEF 1326.8

           United States Government                                                                 Department of Energy



            memorandum
                         DATE:   August 16, 2006                               Audit Report Number: OAS-L-06-17

                REPLY TO
                 ATTN OF;        TG-36 (A06ET010)

                SUBJECT:         Audit of the "Molten Salt Reactor Experiment Cleanup Project"

                          TO:    Manager, Oak Ridge Office

                                 INTRODUCTION AND OBJECTIVE

                                 In July 1998, the Department signed a Record of Decision with the Tennessee
                                 Department of Environment and Conservation, and the U.S. Environmental
                                 Protection Agency for the Molten Salt Reactor Experiment Facility. The
                                 objective of the Record of Decision was to select the action for removing fuel and
                                 flush salts from the reactor in order to reduce the potential risk from the highly
                                 radioactive salt. The removal process encompassed melting the salt mixture,
                                 separating the uranium from the salts, and transferring the uranium oxide to the
                                 national Uranium-233 repository at the Oak Ridge National Laboratory for
                                 interim storage. The Record of Decision required completion of the remedial
                                 action by February 2003 and the submittal of a Remedial Action Report to the
                                 regulators by May 2003.

                                 From Fiscal Years 1999 through 2003, the Department spent about $67.7 million
                                 on the remediation of the facility under a contract with Bechtel Jacobs Company,
                                 LLC (Bechtel Jacobs). Bechtel Jacobs' October 2003 accelerated environmental
                                 cleanup contract included a baseline value of $29.7 million for the remaining
                                 remedial action work scope. However, Bechtel Jacobs internally re-basclined the
                                 project in May 2004 to complete the remedial action by December 2005 at a cost
                                 of $22 million. In November 2005, Bechtel Jacobs submitted a comprehensive
                                 baseline change proposal which adjusted the baseline to $32.7 million to make it
                                 more indicative of the true scope and schedule. This baseline change proposal
                                 was conditionally approved in December 2005. The date for submitting the
                                 Remedial Action Report, a Federal Facility Agreement milestone, was
                                 subsequently delayed to September 2006 per agreement with the regulators.

                                 We conducted this review to determine whether the Molten Salt Reactor
                                 Experiment Cleanup Project is on schedule and within budget.

                                 CONCLUSIONS AND OBSERVATIONS

                                 We found that the Molten Salt Reactor Experiment Cleanup Project is not on
                                 schedule and within budget. Specifically, as of the May 2006 performance
                                 summary report, the contractor estimates that:


                                                                           1
    *   Submittal of the Remedial Action Report will not be until January 2007,
        more than three months after the current agreed upon date with the
        regulators; and
    *   Project costs have increased to $37 million, or $15 million more than the
        May 2004 re-baselined project estimate.

While we recognize that the cleanup of the Molten Salt Reactor Experiment
                                                                          portion of the
Project presents unique cleanup challenges, we believe a significant
schedule delays and cost increases were attributable to equipment failures that
were not adequately addressed by the contractor earlier in the project.or when the
project was re-baselined in May 2004. For example, according to the contractor,
the need to develop an alternative salt transfer design was not recognized until the
summer of 2005 after it was determined that the transfer line for the initial fuel
flush tank was plugged and that an alternate flow pathway was required.
However, as early as November 1996 during early remediation actions of the
project, blockages were confirmed in other areas of the piping system. Despite
this information, the Department did not formally evaluate installing new salt
transfer lines during the design evaluation of salt transfer alternatives or
sufficiently plan for the possibility that plugs in the existing transfer lines could
not be cleared.

The weaknesses noted in this report are not unique to this project. In our recent
follow-up report on the Department's Performance of the Miamisburg Closure
Project (DOE/IG-0721, March 2006), we noted that the Department did not
sufficiently plan for work scope activities that it was aware of early in the project
or quantify the risk posed by the work scope uncertainties. We recommended that
for future projects, the OTice of Environmental Management perform and
implement proper risk analysis techniques to eliminate, avoid, or mitigate
potential risks to achieving site closure according to set cost and schedule goals.
The Acting Assistant Secretary for Environmental Management concurred with
the recommendation and proposed acceptable corrective action. As such, no
additional recommendations are being made in association with this report.
However, we believe that this report reaflirms the impoitance of ensuring that the
corrective actions agreed to by management are carried out.

SCOPE AND METHODOLOGY

The audit was performed from November 2005 through July 2006, at the
Department's Oak Ridge National Laboratory and Oak Ridge Office in Oak
Ridge, Tennessee. The audit scope was limited to the Molten Salt Reactor
Experiment Cleanup Project conducted by Bechtel Jacobs from 1999 to 2006. To
accomplish the audit, we obtained and reviewed documents relating to the
remedial action, including the Record of Decision and monthly project status
reports; reviewed cost data; and, interviewed key Bechtel Jacobs and Department
personnel.

The audit was performed in accordance with generally accepted Government
auditing standards for performance audits and included tests of internal controls
and compliance with laws and regulations to the extent necessary to satisfy the


                                    2
                                                                                        of
      audit objective. Accordingly, we evaluated the Department's implementation
      the Government Performance and Results Act of 1993 and determined that
      although the Molten Salt Reactor Experiment Project did not have specific
                                                               that had performance
      performance measures, it was part of a larger program
      measures. Because our review was      limited, it would not necessarily have
      disclosed all internal control deficiencies that may have  existed at the time of our
      audit. Also, since we did not rely upon automated data processing information to
      accomplish our audit objective, we did not conduct an assessment of the
      reliability of computer processed data.

      An exit conference was held with officials from the the Oak Ridge Office on
      August 8, 2006.

      We appreciate the cooperation of your staff during our review. Because no
      formal recommendations are being made in this letter report, a formal response is
      not required.




                                              'redrick G. Pieper, Director
                                             Energy, Science, and Environmental
                                                Audits Division
                                             Office of Inspector General


cc:   Assistant Secretary, Office of Environmental Management, EM-1
      Team Leader, Audit Liaison Team, CF-1.2
      Audit Liaison, Office of Environmental Management, EM-33
      Audit Liaison, Oak Ridge Office, FM-733




                                         3
